Audit Report




OIG-07-026
ACQUISITIONS: Treasury Franchise Fund Needs to Improve
Compliance with Department of Defense Procurement
Requirements
January 16, 2007




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 3

    Results in Brief............................................................................................ 4

    Background ................................................................................................ 8

    Findings and Recommendations .................................................................... 14

        FedSource Did Not Ensure that Contract Actions Taken on Behalf
        of DoD Were Adequately Competed or Obtained Best Value ........................ 14
        Recommendations................................................................................... 18

        FedSource Task Orders Lacked Evidence of Adequate Quality
        Assurance Surveillance............................................................................ 20
        Recommendation .................................................................................... 22

        FedSource Should Implement Additional Due Diligence Procedures
        to Help Ensure the Proper Use of Government Funds................................... 23
        Recommendations .................................................................................. 28

Appendices

    Appendix     1:      Objective, Scope, and Methodology ........................................            33
    Appendix     2:      Missing Documentation from FedSource Task Order Files .........                       35
    Appendix     3:      Task Orders With DoD Funding and Bona Fide Need Exceptions .                          37
    Appendix     4:      Management Response .........................................................         38
    Appendix     5:      Major Contributors to This Report ...........................................         43
    Appendix     6:      Report Distribution................................................................   44

Abbreviations

    ARC                  Administrative Resource Center
    BPA                  Blanket Purchase Agreement
    COTR                 Contracting Officer’s Technical Representative
    DCFO                 Deputy Chief Financial Officer
    DFARS                Defense Federal Acquisition Regulations Supplement
    DoD                  Department of Defense
    FAR                  Federal Acquisition Regulation
    GAO                  Government Accountability Office

                         ACQUISITIONS: Treasury Franchise Fund Needs to Improve                            Page 1
                         Compliance with Department of Defense Procurement Requirements
                         (OIG-07-026)
MIPR       Military Interdepartmental Procurement Request
NDAA       National Defense Authorization Act
O&M        Operations and Maintenance
OIG        Office of Inspector General
OMB        Office of Management and Budget
RTD&E      Research, Development, Test, and Evaluation
Treasury   Department of the Treasury
U.S.C.     United States Code
WHS        Washington Headquarters Service




           ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 2
           Compliance with Department of Defense Procurement Requirements
           (OIG-07-026)
                                                                               Audit
OIG
The Department of the Treasury
                                                                               Report
Office of Inspector General



                      January 16, 2007

                      Richard Holcomb
                      Acting Chief Financial Officer

                      This report presents the results of an audit we conducted
                      separately, but in coordination with the Department of Defense
                      (DoD) Office of Inspector General (OIG), of DoD procurements
                      made through the Department of the Treasury (Treasury) franchise
                      fund. Our audit was required by the National Defense Authorization
                      Act (NDAA) for Fiscal Year 2006.1 During fiscal year 2005,
                      FedSource, a component of the Treasury franchise fund and the
                      principal focus of our audit, issued approximately 19,700 contract
                      actions consisting of task orders and modifications on behalf of
                      DoD valued at $405.1 million.

                      We initiated our audit in August 2005, shortly after the
                      Government Accountability Office (GAO) issued a report that was
                      critical of FedSource contracting assistance to DoD.2 In brief, GAO
                      reported that FedSource (1) generally did not ensure competition
                      for work, (2) did not conduct and document price analyses,
                      (3) sometimes paid contractors higher prices for services than were
                      justified, and (4) relied on administrative personnel who were not
                      trained as contracting officers to ensure that potential contractors
                      had opportunities to submit offers.

                      Our objective was to determine whether Treasury’s procurement
                      policies, procedures, and internal controls applicable to the
1
  The National Defense Authorization Act for Fiscal Year 2006, 119 Stat. 3136, Pub. L. No. 109-163,
was enacted January 6, 2006. Section 811 of the act mandates the audit of Treasury by our office and
DoD OIG. Similar audits are also mandated for the Department of the Interior and the National
Aeronautics and Space Administration and are to be performed by the DoD OIG and the OIGs of those
agencies.
2
  GAO, Interagency Contracting: Franchise Funds Provide Convenience, but Value to DOD Is Not
Demonstrated, GAO-05-456 (Washington, D.C.: July 29, 2005). The GAO report also examined DoD’s
use of GovWorks, a franchise fund run by the Department of the Interior. Together, FedSource and
GovWorks accounted for approximately 95 percent of services provided by franchise funds to DoD in
fiscal year 2003 (the fiscal year on which the GAO report is based).

                      ACQUISITIONS: Treasury Franchise Fund Needs to Improve                  Page 3
                      Compliance with Department of Defense Procurement Requirements
                      (OIG-07-026)
                      procurement of property products and services on behalf of DoD,
                      and the manner in which they are administered, were adequate to
                      ensure Treasury’s compliance with the laws and regulations that
                      apply to procurements of property and services made on behalf of
                      DoD. To accomplish this objective, we reviewed a sample of 64
                      task orders at three FedSource centers — Los Angeles, CA; St.
                      Louis, MO; and Baltimore, MD. We also reviewed contracts and
                      blanket purchase agreements at the Administrative Resource
                      Center (ARC), another component of the Treasury franchise fund,
                      located at the Bureau of the Public Debt in Parkersburg, West
                      Virginia. Our objective, scope, and methodology are described in
                      more detail in appendix 1.

                      Pursuant to the fiscal year 2006 NDAA, the DoD OIG and our
                      office informed the Senate and House Committees on Armed
                      Forces in letters dated March 15, 2006, that we had determined
                      that Treasury was not compliant with DoD procurement
                      requirements, but had a program or initiative in place to
                      significantly improve compliance with DoD procurement
                      requirements.3 Copies of our letters, which also summarized our
                      work and determination, were provided to your staff. Copies of this
                      report will be provided to the Committees on Armed Forces.


Results in Brief
                      We found that FedSource issued policies and procedures that are
                      responsive, if implemented as described, to address GAO’s
                      recommendations. For example, FedSource (1) established policy in
                      July 2005 pertaining to ethical conduct and proper use of contract
                      vehicles; (2) established an acquisition performance measurement
                      program in August 2005 to measure, evaluate, and improve
                      management practices in the delivery of contract administration
                      services to FedSource customers; (3) established a standard
                      checklist in July 2005 for documenting task order files; (4) revised
                      its customer request form for services, with detailed instructions

3
  The Fiscal Year 2006 NDAA required that the DoD and Treasury Inspectors General reach one of the
following determinations by March 15, 2006 (1) Treasury is compliant with DoD procurement
requirements; (2) Treasury is not compliant with DoD procurement requirements, but has a program or
initiative to significantly improve compliance with DoD procurement requirements; or (3) neither of
these conclusions is correct.

                      ACQUISITIONS: Treasury Franchise Fund Needs to Improve                   Page 4
                      Compliance with Department of Defense Procurement Requirements
                      (OIG-07-026)
                       for completing statements of work and quality assurance
                       surveillance plans; and (5) established procedures in September
                       2005 for using incremental funding of acquisitions. These policies
                       and procedures are discussed in more detail later in this report.

                       Our review of 64 task orders, which were awarded before the
                       above actions were taken, found conditions that were consistent
                       with GAO’s findings. Specifically, we found the following:

                       •   FedSource did not adequately compete all task orders. The
                           contracting officers did not provide fair opportunity for
                           competition for task orders issued against multiple-award
                           contracts and issued awards based on customer preferred
                           services. The task orders also lacked complete documentation
                           required by federal procurement regulations and FedSource
                           policies and procedures. For example, we noted that 31 files did
                           not have independent government cost estimates; 18 files did
                           not have proposals, offers, or quotes evidencing competition;
                           and 32 files lacked price negotiation documentation. We also
                           noted that 1 task order was incrementally (partially) funded, but
                           lacked the required clause limiting the government’s payment
                           for and the contractor’s provision of services to the amount that
                           was funded.
                       •   Twenty-one task orders lacked a quality assurance surveillance
                           plan, 2 had identical quality assurance plans although the
                           scopes of the task orders differed from one another, and 4 had
                           plans that were inadequate. Quality assurance surveillance plans
                           are required by procurement regulations and specify all work
                           requiring surveillance and the method of surveillance.
                           Additionally, Contracting Officer's Technical Representative
                           (COTR)4 designation letters were not consistent with quality
                           assurance surveillance plan instructions for who was
                           responsible for performing quality assurance surveillance.
                           Quality assurance surveillance is necessary to determine that
                           supplies or services received conform to contract requirements.
                           The files lacked evidence that FedSource personnel performed
                           inspections of the contractors’ work or had otherwise obtained

4
  COTRs are responsible for technical monitoring of contract performance. Unlike contracting officers,
they are not authorized to contractually bind the government or issue instructions or directions that
would change the scope or price of contracted work.

                       ACQUISITIONS: Treasury Franchise Fund Needs to Improve                     Page 5
                       Compliance with Department of Defense Procurement Requirements
                       (OIG-07-026)
   assurance that the contractors performed in accordance with
   the contract requirements. We were told by FedSource
   personnel that DoD was responsible for determining if property
   or services were provided in accordance with the task orders.
   Although these expectations were spelled out in those quality
   assurance plans that were documented, the task order files do
   not provide evidence of monitoring being performed.

For DoD procurements made through 21 FedSource task orders,
DoD OIG identified instances where incorrect DoD appropriations
were used and where the bona fide need rule was potentially
violated. As such, these deficiencies represent potential violations
of the Antideficiency Act. While the DoD OIG’s findings were
principally directed at DoD, they point to a need for FedSource to
identify the due diligence it performs when accepting orders to help
prevent the use of incorrect appropriations. Our discussions with
FedSource management indicated that FedSource also recognizes
this need. We also noted that FedSource’s three servicing centers
had inconsistent procedures for reviewing Military
Interdepartmental Procurement Requests (MIPR) and interagency
agreements before acceptance. Also, as FedSource management
has pointed out, guidance for conducting due diligence is not
defined. Accordingly, FedSource should work with DoD in
establishing a common set of indicators that it should use to
determine which procurement requests require more intense
FedSource scrutiny. Furthermore, in accordance with a recent DoD
directive, FedSource will need to ensure that the task orders for
severable services (services that are continuing and recurring in
nature) have periods of performance that do not exceed 1 year
from the date of MIPR acceptance.

Consistent with our determination that Treasury was not compliant
with DoD procurement requirements but had a program to
significantly improve compliance, the fiscal year 2006 NDAA
requires that DoD OIG and our office to conduct a second
concurrent review of Treasury’s fiscal year 2006 procurement of
property and services on behalf of DoD. The purpose of this second
review is to make another determination, by June 15, 2007, as to
whether Treasury is or is not compliant with DoD procurement
requirements. A determination of noncompliance by this second
review has significant implications for the Treasury franchise fund.

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 6
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Specifically, DoD would be prohibited from procuring property or
services through Treasury in excess of $100,000 unless
(1) authorized by the Under Secretary of Defense for Acquisition,
Technology, and Logistics or (2) a subsequent joint review by DoD
OIG and our office finds that Treasury is compliant with DoD
procurement requirements.

The provision in the fiscal year 2006 NDAA for a second review by
DoD OIG and our office underscores the need for FedSource
management to ensure that the policies and procedures established
in response to the July 2005 GAO report are effectively
institutionalized in a timely manner. We are making five
recommendations in this report to further ensure that FedSource is
procuring property and services on behalf of DoD in compliance
with DoD procurement requirements. The recommendations are
directed toward ensuring that (1) there is appropriate competition
for supplies and services acquired on behalf of DoD and prices paid
are reasonable, (2) the task order contract files document
compliance with procurement requirements, (3) quality assurance
surveillance plans are adequate and implemented and COTR
designation letters clearly delineate lines of responsibility for who
performs monitoring and how monitoring is to be documented,
(4) uniform procedures are developed that outline the steps of a
reasonable review (due diligence) to be performed before accepting
DoD orders, and (5) task orders for severable services are for
periods of performance that do not exceed 1 year from the date of
MIPR acceptance.

Management Response and OIG Comment

In the response to our draft report, the Deputy Chief Financial
Officer (DCFO) concurred with our recommendations for findings 1
and 2 and partially concurred with our recommendations for finding
3. The corrective actions stated by management, if implemented as
described, are generally responsive to the intent of our
recommendations. The partial concurrences relate to the certain
procurements cited as potential violations of the Antideficiency Act
and the extent of due diligence necessary on the part of
FedSource. These matters, and our evaluation, are discussed in the
Findings and Recommendations section of this report.


ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 7
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
                      The DCFO also expressed concern that the timing of our follow-up
                      review does not allow FedSource or DoD sufficient time to fully
                      institutionalize the improvements and changes recommended and
                      currently underway (i.e., draft report was issued September 14,
                      2006, with the follow up review focusing on the time period of
                      July through September 2006).

                      With respect to the DCFO’s concern with the timing of our follow-
                      up review, it should be noted that both scope and timing of this
                      review and the follow-up are mandated by the fiscal year 2006
                      NDAA. Furthermore, the corrective actions taken in response to the
                      recommendations contained in the GAO July 2005 FedSource
                      Report, which very much mirror the recommendations in this
                      report, were established before fiscal year 2006.

                      The text of the management response is included as appendix 4.

                      Other Matter

                      Subsequent to our field work, the Department’s Office of General
                      Counsel informed the Department of an instance of possible
                      Antideficiency Act violation related to transactions and activities of
                      the Treasury Franchise Fund. Specifically, contracting and
                      budgetary control weaknesses existing with the Fund may have
                      allowed a potential violation of both the Competition in Contracting
                      Act and the Antideficiency Act for a contract whose ceiling was
                      exceeded without proper competition. This matter was also
                      reported by the Independent Public Accountant in its audit report
                      on the Department’s fiscal years 2006 and 2005 financial
                      statements.5

Background
                      Franchise Funds

                      The Government Management Reform Act of 1994 authorized the
                      Office of Management and Budget (OMB) to establish franchise
5
  Audit of the Department of the Treasury’s Fiscal Years 2006 and 2005 Financial Statements
(OIG-07-010; issued November 15, 2006). The Independent Public Accountant’s audit of these
statements was performed under the supervision of the Treasury Office of Inspector General.

                      ACQUISITIONS: Treasury Franchise Fund Needs to Improve                  Page 8
                      Compliance with Department of Defense Procurement Requirements
                      (OIG-07-026)
fund pilot programs at six executive agencies. Franchise funds are
government-run, self-supporting, businesslike enterprises managed
by federal employees. The funds provide a variety of common
administrative services, such as payroll processing, information
technology support, employee assistance programs, and
contracting. Franchise funds are required to recover their full cost
of doing business and are allowed to retain up to 4 percent of their
annual income. To cover their costs, the funds charge fees for the
services they provide.

Congress authorized the pilot programs because it expected that
franchise funds would be able to provide common administrative
services more efficiently than each federal agency on its own. In
1996 and 1997, OMB established franchise fund pilot programs at
the Departments of Commerce, Health and Human Services, the
Interior, the Treasury, Veterans Affairs, and the Environmental
Protection Agency. The programs were to expire in 1999, 5 years
after passage of the Government Management Reform Act. The
Consolidated Appropriations Act, 2005, amended the past
legislation giving the Treasury franchise fund permanent status.

Treasury Franchise Fund Entities Used by DoD

The Treasury franchise fund comprises the following entities:
(1) FedSource, (2) ARC, (3) Federal Consulting Group, and
(4) Treasury Agency Services. Procurement services to DoD are
provided through FedSource and ARC.

The acquisition process for the Treasury franchise fund originates at
ARC. ARC performs contract competitions and establishes master
contract vehicles from which FedSource issues task orders to meet
customer needs. In addition, ARC appoints FedSource’s contracting
officers, designates COTRs, and conducts compliance reviews to
determine whether Treasury franchise fund procurement activities
are being carried out in accordance with applicable laws and
regulations. FedSource serves as liaison between customers and
contractors, develops comprehensive acquisition strategies, works
with customers to develop statements of work, competes and
awards task orders, develops and participates in quality assurance
surveillance plans, and closes out completed task orders.


ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 9
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
One type of master contract vehicle awarded by ARC is the “multiple
award” contract. A multiple award contract is made with two or
more sources under a solicitation who agree to provide the same or
similar supplies and services at fixed prices during a fixed period.
Such contracts obligate the government to purchase a minimum
quantity from each contractor. The government places orders under
these contracts for individual requirements.

FedSource’s Process

DoD sends FedSource either a MIPR or an Interagency Agreement
as funding documents to procure property or services. These
documents should describe the type of property or services
requested and identify the appropriation account of the funds being
provided. Upon receipt, FedSource reviews the funding documents,
and if accepted, issues task orders against master contracts for the
requested property or services. Funding documents may fund more
than one task order; similarly, multiple funding documents may
fund multiple task orders.

Key Laws and Regulations

Procurement activities conducted by federal franchise funds are
subject to the same laws and regulations to which other federal
government procurement activities are subject, as well as to any
additional regulations specific to the funding agency. Three of the
principal legal authorities that govern the procurement activities of
this review the Federal Acquisition Regulation (FAR), the Defense
Federal Acquisition Regulations Supplement (DFARS), and the
Antideficiency Act.

The FAR is the primary regulation for use by all federal executive
agencies in their acquisition of supplies and services with
appropriated funds. It became effective on April 1, 1984, and is
issued within applicable laws under the joint authorities of the
Administrator of General Services, the Secretary of Defense, and
the Administrator for the National Aeronautics and Space
Administration, under the broad policy guidelines of the
Administrator, Office of Federal Procurement Policy, Office of
Management and Budget.


ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 10
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
                        According to the FAR, contracting officers, as a matter of policy
                        and with certain limited exceptions, must promote and provide full
                        and open competition in soliciting offers and awarding government
                        contracts. Contracting officers are to do this through the use of the
                        competitive procedures. As prescribed in the FAR, contracting
                        officers are to purchase supplies and services from responsible
                        sources at fair and reasonable prices. The determination of price
                        reasonableness should be documented in the contract file.

                        DoD implements and supplements the FAR in the DFARS under the
                        authorization and subject to the authority, direction, and control of
                        the Secretary of Defense. DFARS requires, with certain exceptions,
                        that each procurement for DoD exceeding $100,000 under a
                        multiple award contract be made on a competitive basis. When
                        using the term “competitive basis” in regard to multiple award
                        contracts, the contracting officer must provide fair notice to all
                        contractors offering the required supplies or services, and ensure
                        that the contractors are afforded a fair opportunity to submit an
                        offer and have that offer fairly considered.6

                        Similarly, the FAR directs contracting officers to provide all
                        contractors under multiple award contracts fair opportunity to be
                        considered for orders exceeding $2,500 under multiple delivery or
                        multiple task order contracts. This subpart also requires contracting
                        officers to document in the contract file the rationale for placement
                        and price of each order.

                        The Antideficiency Act prohibits federal government officials from
                        making payments or committing the United States to make future
                        payments for goods or services unless Congress has appropriated
                        sufficient funds to pay for those goods or services. Among other
                        things, the law prohibits the federal government from using funds
                        for other than their intended purpose or making or authorizing
                        expenditure from, or creating or authorizing an obligation under,

6
  This DFARS provision implements Section 803 of the NDAA for Fiscal Year 2002, enacted as
Pub. L. 107-107 on December 28, 2001. As stated in DFARS, exceptions to the fair opportunity
process apply when (1) only one contractor is capable of providing the supplies or services required at
the level of quality required because the supplies or services are unique or highly specialized or (2) the
order must be issued on a sole source basis in the interest of economy and efficiency because it is a
logical follow-on to an order already under the contract, provided that all awardees were given a fair
opportunity to be considered for the original order.

                        ACQUISITIONS: Treasury Franchise Fund Needs to Improve                      Page 11
                        Compliance with Department of Defense Procurement Requirements
                        (OIG-07-026)
                     any appropriation or fund in excess of the amount available in the
                     appropriation or fund unless authorized by law.7

                     GAO Analysis of DoD Use of FedSource

                     In July 2005, GAO issued a report on DoD’s use of franchise
                     funds.8 Overall, GAO found that FedSource generally did not ensure
                     competition for work, relied on personnel who were not trained as
                     contracting officers, did not conduct and document price analyses,
                     and sometimes paid contractors higher prices than were justified.

                     To address these findings, GAO recommended that the Secretary
                     of the Treasury (1) develop procedures and performance measures
                     for franchise fund operations to demonstrate compliance with
                     federal procurement regulations and policies while maintaining
                     focus on customer service, (2) develop procedures for franchise
                     fund contracting officers to work closely with DoD customers to
                     define contract outcomes and effective oversight methods, and
                     (3) assign warranted contracting officers to positions responsible
                     for performing contracting officer functions. Treasury concurred
                     with these recommendations.

                     FedSource Actions to Address GAO Recommendations

                     From July to September 2005, FedSource established policies and
                     procedures that, if properly implemented, would be responsive to
                     GAO’s recommendations.

                     •   In July 2005, FedSource established policy pertaining to
                         acquisition of goods and services that provided, among other
                         things, that (1) all FedSource personnel are to adhere to the
                         highest standards of ethics in executing contract solicitation,
                         awards, and administration responsibilities; (2) all contracts and
                         blanket purchase agreements (BPAs) are to be used only for
                         their intended purpose; (3) only FedSource personnel are
                         authorized to serve as COTRs on FedSource contracts, BPAs,
                         and other contract vehicles (unless approved by the FedSource

7
 31 U.S.C. § 1341(a)(1)(A).
8
 GAO, Interagency Contracting: Franchise Funds Provide Convenience, But Value to DOD Is Not
Demonstrated, GAO-05-456 (Washington, D.C.: July 29, 2005).

                     ACQUISITIONS: Treasury Franchise Fund Needs to Improve                   Page 12
                     Compliance with Department of Defense Procurement Requirements
                     (OIG-07-026)
    Vice President of Acquisition); (4) all FedSource centers
    implement use of warranted contracting officers; and (5) all
    FedSource personnel are to promote the use of performance-
    based contracts.
•   In July 2005, FedSource established a standard checklist for
    documentation required to be retained in task order files.
•   In August 2005, FedSource established an acquisition
    performance measurement program as a tool to measure,
    evaluate, and improve management practices in the delivery of
    contract administration services to FedSource customers. The
    acquisition performance measurement program provides for
    objectives, measures, and goals in the areas of (1) purchase
    cards, (2) small business goals, (3) compliance, (4) competition,
    (5) quality assurance, and (6) training. It should be noted,
    however, that the program goals set for fiscal year 2005 were
    at levels less than 100 percent of full compliance with
    procurement requirements. For example, FedSource’s objective
    for compliance is to ensure task orders issued on behalf of
    customers meet all legal, regulatory, and policy requirements.
    However, its compliance goal for sampled fiscal year 2005
    tasks orders was 80 percent. Likewise, FedSource’s goals for
    quality assurance were set at less than 100 percent for fiscal
    year 2005. For fiscal year 2006, FedSource’s goals in this area
    are to have surveillance plans in place for all performance-based
    contracts by March 31, 2006, and documented surveillance on
    all performance-based task orders by the end of fiscal year
    2006.
•   In August 2005, FedSource also revised its customer request
    form for services; the revised form includes detailed instructions
    for completing statements of work and quality assurance
    surveillance plans. FedSource also developed guidelines to
    delineate the role and responsibilities of the customer agency’s
    project officer.
•   In September 2005, FedSource established procedures for the
    use and documentation of task orders that are incrementally
    funded.




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 13
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Findings and Recommendations

Finding 1   FedSource Did Not Ensure that Contract Actions Taken
            on Behalf of DoD Were Adequately Competed or
            Obtained Best Value

            For the task orders sampled by our office and DoD OIG, FedSource
            contracting practices did not always give contractors a fair
            opportunity to be considered nor did FedSource always obtain the
            best value for supplies and services purchased. The exceptions we
            found include (1) not ensuring that all contractors under multiple-
            award contracts were given a fair opportunity to compete,
            (2) awarding task orders for work classified as “routine” to
            contractors with the lowest markup without considering
            promotional pricing that may have been offered by other available
            contractors, (3) awarding task orders to contractors who had
            marketed the business to FedSource, and (4) awarding contracts to
            DoD preferred sources without ensuring competition. Additionally,
            we found that the contract files for most task orders in our sample
            did not contained adequate documentation to demonstrate that the
            best value was obtained for supplies and services purchased on
            behalf of DoD. It should be noted, however, that FedSource has
            taken or planned actions that should if properly implemented,
            address these problems.

            FedSource practices that limited competition and/or did not provide
            for the best value:

            •   ARC established multiple-award contracts under which
                FedSource centers could issue task orders to fulfill customer
                requirements. FedSource centers, however, did not ensure that
                all contractors providing similar services under available
                multiple-award contracts were given a fair opportunity to
                compete. FedSource management told us that in the future, all
                contractors providing similar services would be given a fair
                opportunity to compete for individual task orders.
            •   The DoD OIG found that FedSource, as a practice, restricted
                competition by identifying the requested work as either
                “routine” or “complex.” Routine work was work that did not
                have special recruitment, retention, management, or other

            ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 14
            Compliance with Department of Defense Procurement Requirements
            (OIG-07-026)
    technical requirements. Other work was categorized as
    complex, for which FedSource required proposals for evaluation.
    Routine work was awarded to the contractor with the lowest
    markup and overhead rates. However, promotional pricing that
    may have been offered by other available contractors was not
    considered in contractor selection. In fiscal year 2005,
    FedSource made 2,201 routine buys from 2 multiple-award
    contracts, 2 single award contracts, and 7 BPAs. FedSource
    management informed DoD OIG that they plan to compete
    routine buys in the future.
•   FedSource awarded a task order in the amount of $738,013 to
    renovate a building at an Army facility. We found that the
    building renovation was not competed because FedSource
    selected a contractor that brought additional building renovation
    work to FedSource for award. In essence, if a vendor brought
    additional business to FedSource, that vendor was awarded the
    contract, as happened with this task order. In a July 12, 2004,
    letter, FedSource informed its contractors that the practice of
    awarding task orders to contractors that directly markets the
    business was inconsistent with the FAR and that task orders
    would now be competed among all awardees under multiple
    award contracts.
•   FedSource awarded certain task orders to contractors that were
    indicated as the preferred source by the ordering DoD entity.
    For example, FedSource issued a task order in the amount of
    $39,415 for the DoD’s Washington Headquarters Service
    (WHS) for the services of a technical consultant. The task order
    was issued to a BPA contractor on September 30, 2004. The
    request for the services and an email from the WHS to
    FedSource with the subject line “DoD WHS – Suggested
    Source” identified the preferred technical consultant by name.
    Also, the statement of work named the selected contractor as
    the suggested source for the award. The task order file did not
    include a price negotiation memorandum, which should have
    documented the award process, or other evidence of
    competition. While customer requests for specific vendors or
    personnel is not in themselves a problem, FedSource needs to
    ensure it can demonstrate that if the task order is awarded to
    the customer’s requested source, the contract action complied



ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 15
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
                           with procurement requirements for fair competition and that the
                           a fair and reasonable price was obtained.
                       •   The FedSource task orders in our sample contained inadequate
                           documentation to demonstrate that FedSource obtained the
                           best value for supplies and services purchased. Specifically, 31
                           files did not have independent government cost estimates.
                           Eighteen files did not have proposals, offers, or quotes
                           evidencing competition. None of the files documented that
                           market research was performed. Instead, FedSource used the
                           same contractors repeatedly. Thirty-two files lacked price
                           negotiation documentation. None of these files contained
                           explanations of FedSource’s cost analysis. There was also no
                           documentation indicating that FedSource reviewed historical or
                           industry cost data. Appendix 2 identifies the inadequate
                           documentation found with the task orders we reviewed.

                       We also found that 1 of the 64 task order files in our sample was
                       incrementally funded9 but lacked the required documentation. That
                       task order, issued for asbestos abatement on November 13, 2003,
                       was for $683,799. The initial DoD MIPR for the task order, issued
                       on July 30, 2003, was for $370,596. FedSource later received
                       additional funding from DoD increasing the total funding available
                       for the task order to $555,596. This amount, however, was
                       $128,203 less than the amount needed to fully fund the task
                       order. When we questioned FedSource personnel about this
                       disparity, they agreed that the task order was incrementally
                       funded. We found, however, that FedSource had not adhered to its
                       own policy or the FAR for documenting incrementally funded task
                       orders. The policy requires that files for incrementally funded task
                       orders include the following:

                       •   total amount needed to fund the task order
                       •   total period of performance
                       •   incrementally funded amount

9
  By law (Antideficiency Act, 31 U.S.C. § 1341), no office or employee of the government may create
or authorize an obligation in excess of the funds available, or in advance of appropriations. If a contract
is not fully funded upon award, the FAR requires that the contracts include a clause that expressly limits
the government’s obligation to reimburse the contractor for costs incurred to the incremental amount
funded for the contract. The clause also provides that the contractor is not obligated to continue
performance under the contract or otherwise incur costs in excess of the incremental amount funded.
As additional funds are allotted for the contract, a contract modification is required.

                       ACQUISITIONS: Treasury Franchise Fund Needs to Improve                      Page 16
                       Compliance with Department of Defense Procurement Requirements
                       (OIG-07-026)
                        •   funded period of performance
                        •   anticipated schedule for availability of additional funds
                        •   evidence that the customer has been quoted the full-year cost
                            of the work and the period of performance
                        •   signed statement from the customer indicating that the task
                            order is being incrementally funded and that the funds
                            necessary to complete the project are expected to become
                            available
                        •   language on the award stating that the funds necessary to
                            complete the project are not currently available and that the
                            federal government’s liability is conditioned upon those funds
                            becoming available

                        The task order file did not contain this documentation.

                        Among the 64 task order files we reviewed, 18 were from
                        FedSource’s Beaufort center. GAO had already identified this
                        center as having procurement issues, including improper execution,
                        improper funding, and documentation weaknesses. Consequently,
                        FedSource management withdrew the Beaufort center’s ordering
                        authority and transferred the work to other FedSource centers.10
                        Each Beaufort file was assigned a new task order number. An
                        April 21, 2005, FedSource memorandum to the file acknowledged
                        the problems with the files but stated that (1) there was
                        insufficient time to correct the many deficiencies and (2) gaining
                        centers would therefore not be held responsible for any
                        substandard files inherited. In January 2006, we found funding,
                        contractor monitoring, and competition issues, as well as several
                        exceptions to the FAR, in the transitioned Beaufort files. These
                        problems remained unresolved as of March 2006.

                        We also noted that each FedSource center used different forms
                        when awarding task orders. To address this, in July 2005,
                        FedSource established a standard checklist for documentation.
                        Items on the checklist include, among other things, the customer
                        request form; justifications and approvals/determinations and
                        findings; statement of work/performance work statement; quality
                        assurance surveillance plan; independent government cost
                        estimate; request for proposals; proposals, offers, or quotes; price

10
     According to FedSource management, the Beauford center was closed on June 30, 2006.

                        ACQUISITIONS: Treasury Franchise Fund Needs to Improve             Page 17
                        Compliance with Department of Defense Procurement Requirements
                        (OIG-07-026)
negotiation memorandum; and task order modifications. If properly
implemented, the checklist should help ensure that FedSource
centers adhere to procurement requirements.

Recommendations

We recommend that the Deputy Chief Financial Officer direct
FedSource to do the following:

1. Comply with procurement requirements for fair and open
   competition when awarding task orders. Specifically, it should
   ensure that recent policies and other changes to procurement
   practices discussed in this finding have been implemented and
   institutionalized to include affording all contractors under
   multiple award contracts a fair opportunity to compete for task
   orders.

   Management Response

   In its response, management concurred with the
   recommendation. According to the response, FedSource
   changed its current process on existing contracts to discontinue
   using the “routine” ordering procedures. Future FedSource-wide
   contracts will require competition on all task orders through the
   use of requests for proposals. Modifications were processed to
   the multiple award contracts on June 29, 2006, to remove
   “routine” language. FedSource also discontinued the practice of
   awarding orders to contractors that marketed their FedSource
   contract on July 12, 2004. FedSource is in the process of
   providing updated guidance to its offices, customers, and
   contractors relating to “suggested sources.” This guidance was
   completed November 17, 2006. FedSource has implemented
   new policies and procedures to address each of these findings.
   Training has been conducted since March 2006 and will
   continue to assure compliance.

   Management also asserted in its response that based on the
   ordering procedures in the multiple award contracts, fair notice
   was provided to all awardees, if complex in nature, by issuing a
   request for proposal. “Award justification” information was
   included in the task order file. Additionally, promotional pricing

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 18
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
   was considered in contractor selection for routine pricing, and
   contractors did offer promotional pricing which was
   incorporated into the contract.

   OIG Comment

   The corrective actions by management, if implemented as
   described, address the intent of our recommendation. As part of
   our second review of FedSource, covering fiscal year 2006
   procurements on behalf of DoD, we plan to assess the actions
   taken. It should be noted, however, that while we saw evidence
   that promotional pricing by the selected vendor was considered
   in the routine buys included in our sample, the issue is that
   FedSource did not compete these buys with other available
   vendors.

2. Ensure that the contract files for all new task order awards and
   modifications to existing task orders include documentation of
   required competition, market research, and price
   reasonableness.

   Management Response

   Management concurred with the recommendation. According to
   its response, in July 2005 FedSource developed a price
   negotiation memorandum template outlining areas to address for
   a price reasonableness determination. Since that time, revisions
   have been made to the template to further improve
   documentation of the task order files. The revisions were
   completed on November 17, 2006. The price negotiation
   memorandum template outlines the competition that occurred,
   summarizes the evaluation of proposals, and documents fair and
   reasonable pricing through a market comparison, the
   independent government cost estimate, and/or historical
   procurement data. FedSource has also been working closely
   with DoD customers in developing the independent government
   cost estimate, which should be prepared as part of the initial
   request for services received from DoD. FedSource developed a
   Procedure Memorandum in June 2005, with specific
   instructions on how to assist customers in developing the
   independent government cost estimate.

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 19
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
                      Management also stated that market research is done at the
                      overarching contract level in the acquisition planning stages.
                      Although, a market comparison is performed when determining
                      fair and reasonable pricing. DoD is required to conduct market
                      research prior to using a non-DoD contract based on DoD policy
                      issued in October 2004. FedSource issued an Acquisition Policy
                      Memo dated July 5, 2005, which requires its employees to
                      ensure all internal DoD reviews/approvals required prior to
                      placing an order with FedSource have been completed.
                      FedSource has implemented new policies and procedures to
                      address this finding. Training has been conducted since March
                      2006 and will continue to assure compliance.

                      OIG Comment

                      The corrective actions by management, if implemented as
                      described, address the intent of our recommendation. As part of
                      our second review of FedSource, we plan to assess the actions
                      taken. While we note that DoD requires its facilities to conduct
                      market research to support decisions to use non-DoD
                      contracting offices, market research by FedSource is still
                      required to determine the best approach to acquire the specific
                      services and property requested by DoD.

      Finding 2    FedSource Task Orders Lacked Evidence of Adequate
                   Quality Assurance Surveillance

                   According to the FAR, quality assurance surveillance plans are to
                   be prepared in conjunction with the preparation of the statement of
                   work and should specify all work requiring surveillance and the
                   method of surveillance. Quality assurance surveillance is necessary
                   to determine that supplies or services conform to contract
                   requirements.11 Of the 64 FedSource task order files reviewed, we
                   found that 21 lacked a quality assurance surveillance plan, 2 had
                   identical quality assurance plans although the scope of the task
                   orders was different, and 4 had inadequate quality assurance plans.



11
     FAR 46.401.

                   ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 20
                   Compliance with Department of Defense Procurement Requirements
                   (OIG-07-026)
COTRs are designated by the contracting officer and serve as the
government’s representative during the technical, acquisition, and
pre- and post-award cycles of their assigned contracts. They
monitor and document surveillance based on established quality
assurance procedures.

We found task orders that lacked quality assurance surveillance
plans in the FedSource centers we visited: Los Angeles – 11 task
orders, Baltimore – 5 task orders, and St. Louis – 5 task orders.
Furthermore, the files for 2 task orders issued by the Baltimore
center contained identical quality assurance surveillance plans; but
the period of performance in the plans were not consistent with the
period of performance specified in the task orders.

We also found that the files for 4 task orders (3 issued by the Los
Angeles center and 1 issued by the Baltimore center) had
incomplete quality assurance surveillance plans. Although the plans
were signed by a DoD project officer, they were not signed by the
FedSource COTRs. Additionally, the quality assurance surveillance
plans specified that when the DoD project officer signed the
timecards or receiving reports they were certifying deliverables
have been received and meet the government standard. They also
state that FedSource would periodically ask for a copy of the
project officer’s worksheet to document the contract file. We did
not find evidence that contractor monitoring was being performed.

The task orders that lacked or had inadequate quality assurance
surveillance plans are identified in appendix 2.

We determined these files as well as the files without plans lacked
evidence that FedSource COTRs performed inspections of the
contractors’ work or had otherwise obtained assurance that the
contractors performed in accordance with the contract
requirements.

Although FedSource had assigned a COTR to each task order we
reviewed, none of the COTRs performed any surveillance on their
assigned contracts. Additionally, COTR designation letters were not
tailored to the unique requirements of the assigned task orders or
the quality assurance surveillance plans. We also found that some
COTRs were assigned to several task orders. When we asked

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 21
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
FedSource COTRs whether they had performed or documented
surveillance of contractor performance, they stated that
responsibilities for monitoring were assigned to DoD and that
supervision and monitoring were being performed by the hiring DoD
component. For example, one COTR stated that the DoD project
officer signed certifying time and attendance reports. The COTRs
also stated that they considered DoD’s clearance for payment to be
an indication that DoD had reviewed and approved the work. No
written statements documenting that FedSource had
communicated with DoD program managers about performance or
acceptance of contractor surveillance was indicated in the task
order files. When we informed FedSource management that quality
assurance was not being performed, FedSource officials agreed and
told us that they were aware of the situation and were taking steps
to address it.

Without adequate quality assurance surveillance plans, constitently
designated quality assurance responsibilities, timely monitoring of
contract performance, and adequate documentation of monitoring,
FedSource cannot ensure that it is safeguarding the interests of the
federal government in its contractual relationships.

Recommendation

We recommend that the Deputy Chief Financial Officer direct
FedSource to work with DoD to establish controls to ensure that
(a) quality assurance surveillance plans are established for all task
orders; (b) COTR designation letters clearly delineate who is
responsible for performing monitoring, consistent with quality
assurance surveillance plan instructions; and how monitoring is to
be documented for each assigned task order; and (c) monitoring
occurs and is documented before contractors are paid.

Management Response

In its response, management concurred with the recommendation.
According to management, during the past year FedSource focused
its efforts on developing and refining quality assurance surveillance
plans with its customers for performance-based contracts. A
quality assurance surveillance plan currently exist for every
FedSource performance-based task order since July 2005.

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 22
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
                       FedSource also recognized a need to revise its COTR Delegation of
                       Authority letters, as well as the need to identify its customer
                       agency’s responsibilities for monitoring and ensuring the technical
                       requirements of the contract are being met and the performance
                       was within the scope of the contract. Additionally, although the
                       surveillance of task orders is completed at the customer level,
                       FedSource continues to refine the process to ensure clear and
                       concise performance metrics are in place. FedSource is also
                       developing a plan to assist customers with surveillance of their
                       orders by contacting the customer activities on a routine basis to
                       perform surveillance as defined in the quality assurance surveillance
                       plan. These actions were to be completed on January 2, 2007.
                       FedSource team members will document the task order files with
                       findings and report any yellow or red findings to the contractor for
                       corrective action.

                       OIG Comment

                       The corrective actions by management, if implemented as
                       described, address the intent of our recommendation. As part of
                       our second review of FedSource, we plan to assess the actions
                       taken.

Finding 3              FedSource Should Implement Additional Due Diligence
                       Procedures to Help Ensure the Proper Use of Government
                       Funds

                       For DoD procurements made through 21 FedSource task orders,
                       DoD OIG identified instances where incorrect DoD appropriations
                       were used and where the bona fide need rule12 was potentially
                       violated. As such, these deficiencies represent potential violations
                       of the Antideficiency Act. While the DoD OIG’s findings were
                       principally directed at DoD, they point to a need for FedSource to
                       identify what due diligence it performs when accepting orders to
                       help prevent the use of incorrect appropriations. FedSource has

12
   The bona fide need rule is one of the fundamental principles of appropriations law: A fiscal year
appropriation may be obligated only to meet a legitimate (bona fide) need arising in, or in some cases
arising prior to but continuing to exist in, the fiscal year for which the appropriation was made.

                       ACQUISITIONS: Treasury Franchise Fund Needs to Improve                     Page 23
                       Compliance with Department of Defense Procurement Requirements
                       (OIG-07-026)
                       also recognized this need according to our discussions with
                       FedSource management. However, we noted that FedSource’s
                       three servicing centers had inconsistent procedures for reviewing
                       MIPRs and interagency agreements before acceptance. As
                       FedSource management has pointed out, guidance for conducting
                       due diligence is not defined. Accordingly, FedSource should work
                       with DoD in establishing a common set of indicators requiring more
                       intense FedSource scrutiny.

                       As another observation, going forward FedSource will need to
                       ensure that task orders for severable services13 do not have periods
                       of performance that exceed 1 year from the date of MIPR
                       acceptance in accordance with a recent DoD internal directive.

                       Under appropriations law, the concept of funds availability has
                       three elements: purpose, time, and amount. All three must be
                       observed for an obligation or expenditure to be legal. When DoD
                       issues and FedSource accepts a MIPR, DoD records an obligation in
                       its records against its appropriated funds.14 DoD is primarily
                       responsible for ensuring the proper use of its appropriations. The
                       DoD official who signs the MIPR is certifying this proper use.

                       The issues noted with the 21 procurements are as follows:

                       •   Incorrect appropriations DoD OIG concluded that the wrong
                           DoD appropriation was used by the ordering DoD component for
                           9 FedSource task orders. Four of these task orders were for
                           construction projects at Army facilities. The funding MIPRs
                           were obligated against a DoD operations and maintenance
                           (O&M) appropriation, an incorrect appropriation for this work
                           based on the dollar amount of the projects.15 The other 5 task
                           orders involved improper use by DoD of a Research,
                           Development, Test, and Evaluation (RDT&E) appropriation

13
   When services are continuing and recurring in nature, the services are severable. Examples of such
services in our sample include counseling, analytical, and program management support services.
14
   When FedSource issues a task order for the goods or services requested in the MIPR, it obligates a
Treasury revolving fund appropriation. A key feature of a revolving fund is that it is available without
further congressional action and without fiscal year limitation.
15
   10 U.S.C. § 2805 established limits on the use of DoD O&M appropriations for minor military
construction projects. Generally, such projects cannot exceed $750,000 unless approved in advance by
the secretary of the armed forces branch concerned and with prior congressional notification.

                       ACQUISITIONS: Treasury Franchise Fund Needs to Improve                    Page 24
                       Compliance with Department of Defense Procurement Requirements
                       (OIG-07-026)
                           versus an O&M appropriation. The 9 task orders for which
                           incorrect appropriations were used are identified in appendix 3.
                       •   Bona fide need exceptions The goods and services acquired
                           through 16 FedSource task orders were inconsistent with the
                           bona fide need rule. These 16 task orders included 4 task orders
                           for which DoD OIG also concluded that an incorrect DoD
                           appropriation was used. The common element in these cases is
                           that the task orders were awarded in the fiscal year following
                           the fiscal year appropriation that was obligated by DoD. For
                           example, on September 30, 2004, a DoD component issued
                           and FedSource accepted a MIPR funded with a DoD fiscal year
                           2004 appropriation to provide repair services on a runway and
                           taxiway with a period of performance from December 1, 2004,
                           to November 30, 2005. FedSource awarded the contract on
                           April 4, 2005, 6 months after accepting the MIPR. The amount
                           of the task order was $1,188,042. In another example, DoD
                           issued a MIPR on September 13, 2004, for a Public Awareness
                           Campaign and Family Child Care Conference that was obligated
                           using fiscal year 2004 funds. FedSource awarded the related
                           task order in the amount of $1,027,640 with a period of
                           performance from September 22, 2004, through September 13,
                           2005. However, the conference that was part of the services
                           was not scheduled until July 2005.

                           Certain task orders involved severable services. Under DoD
                           procurement requirements, DoD may use funds available for a
                           fiscal year to enter into a contract for severable services that
                           begin during the fiscal year and end in the next fiscal year as
                           long as the contract period does not exceed 1 year.16 For two
                           task orders, the period of performance, including modifications,
                           exceeded 1 year from the date of initial MIPR acceptance and
                           obligation of the DoD funds. The details of these task orders are
                           presented in the following table:




16
  10 U.S.C. § 2410a. A similar provision for civilian agencies was enacted as part of the Federal Act
Streamlining Act of 1994 and is codified at 41 U.S.C. §253l.

                       ACQUISITIONS: Treasury Franchise Fund Needs to Improve                   Page 25
                       Compliance with Department of Defense Procurement Requirements
                       (OIG-07-026)
                                                                                       Period in Excess
                                  Task Order                                            of 1 year From
                                                                         Date MIPR           MIPR
            Number         Amount           Period of Performance        Accepted        Acceptance

         LOS014553a $14,483,489               3/14/2005 to 12/31/2005 7/30/2004              5 months
         LOS013101          $121,661          9/30/2004 to 11/30/2005 9/22/2004              2 months
         a
           The task order was initially issued on March 29, 2005, by the FedSource Beaufort center as
           no. BEA002638.

                         A March 2006 DoD internal directive clarified requirements for
                         severable services contracts made through servicing agencies.
                         Specifically, the directive states that under no circumstances
                         should any existing order for severable services using O&M
                         funds extend beyond 1 year from the date the funds were
                         accepted by the servicing agency.17

                         Appendix 3 identifies the 16 task orders for which DoD OIG
                         identified bona fide need exceptions based on its review.

                      It is generally recognized that legitimate rationales exist for an
                      obligation incurred in one fiscal year resulting in the delivery of
                      service in the next one. In the case of service contracts, the need
                      for a particular service may arise in one fiscal year but full
                      performance cannot be completed within that same year. In the
                      case of delivery of goods contracts, there are many valid reasons
                      why delivery cannot be completed in the same year. For example,
                      the contractor may need to fabricate certain components, or the
                      necessary materials may not be available until the next year. The
                      general rule is, “If an obligation is proper when made, unforeseen
                      delays that cause delivery or performance to extend into the
                      following year will not invalidate the obligation.” A September 25,
                      2003, internal DoD directive further recognizes that there are
                      situations when it is appropriate for servicing agencies such as
                      FedSource to retain and obligate the funds in the following year but
                      cautions that the bona fide need must exist for the fiscal year in
                      which the order is made. The directive also cautions that the



17
  Memorandum by the Under Secretary of Defense (Comptroller), dated March 27, 2006, “Proper Use
of Interagency Agreements with Non-Department of Defense Entities Under Authorities Other Than the
Economy Act.”

                      ACQUISITIONS: Treasury Franchise Fund Needs to Improve                    Page 26
                      Compliance with Department of Defense Procurement Requirements
                      (OIG-07-026)
                       obligation by the servicing agency should be made promptly in the
                       following year.18

                       Although DoD is responsible for the proper use of its
                       appropriations, we believe and FedSource management agrees that
                       FedSource has a due diligence responsibility as well. By virtue of
                       its role as a servicing agency, charged with taking and executing
                       orders, and obligating the United States on behalf of the requesting
                       agency, FedSource has a concurrent duty to ensure the legitimacy
                       and legality of orders that it places. Taking into consideration the
                       limited nature of review possible on the servicing agency’s side of
                       a transaction, FedSource’s contracting centers, with their expertise
                       in government contracting and appropriations laws and regulations,
                       have a duty to review orders and a duty to ask questions when
                       cautionary flags are raised. Although they may be unfamiliar with
                       the particular characteristics of a specific agency’s appropriation,
                       they should be familiar with common rules, laws, and principles
                       that should typically be applied in reviewing an order.

                       While FedSource management acknowledged the need for due
                       diligence, there is no consensus on which indicators that
                       FedSource contracting officers should consider when they review
                       DoD procurement requests. Each FedSource center established its
                       own procedures for reviewing funding documents such as MIPRs.
                       All had a check for ensuring that the funding document was signed
                       by the ordering agencies and procedures to note the period of
                       availability of the funding (no-year, 1-year). One center instructed
                       staff to review the document for “correct use of funding” and
                       noted that “O&M funding is for one year” and “[RDT&E] is for two
                       or more years.” We believe that, working with DoD, FedSource
                       should develop a standard set of procedures and due diligence
                       checks to be followed by its ordering centers. Checks could include

18
   Memorandum by the Under Secretary of Defense (Comptroller), dated September 25, 2003, “Fiscal
Principals and Interagency Agreements.” The memorandum states, in part: “Every order under an
interagency agreement must be based upon a legitimate, specific, and adequately documented
requirement representing a bona fide need of the year in which the order is made. As always, adequate
funds of the appropriate type (procurement, O&M, etc.) must be available. If these basic conditions are
met, these servicing agencies may retain and promptly obligate the funds in the following fiscal year.
On the other hand, an interagency agreement may not be used in the last days of the fiscal year solely
to prevent funds from expiring to keep them available for a requirement arising in the following fiscal
year.”

                       ACQUISITIONS: Treasury Franchise Fund Needs to Improve                   Page 27
                       Compliance with Department of Defense Procurement Requirements
                       (OIG-07-026)
such things as legal limits on the use of O&M appropriations for
military construction and the proper use of RDT&E funds. It should
also work with DoD to establish more clear parameters for the
“prompt” awarding of contracts after the fiscal year of the funding.

Recommendations

We recommend that the Deputy Chief Financial Officer direct
FedSource to do the following:

1. Develop uniform procedures that outline the steps of a
   reasonable review (due diligence) to be performed before
   FedSource accepts a MIPR. By applying the reasonable
   standard, FedSource should ensure that the MIPR has the
   appropriate signatures and that all information appears
   adequate. If something unusual or out of the ordinary is
   identified (e.g., a request for military construction that exceeds
   a legal threshold), FedSource should seek resolution prior to
   accepting the MIPR or reject the MIPR. FedSource should work
   with DoD as necessary to establish the elements of such a
   review.

   Management Response

   In its response, management partially concurred with the
   recommendation. According to management, FedSource
   established uniform procedures that require a due diligence
   review prior to signing interagency agreements or MIPRs.
   FedSource issued procedures on July 26, 2006. The review
   includes checking that signatures from both program and
   financial officials have been obtained. FedSource is relying on
   the program official to represent the customer and sign the
   agreement signifying they approve of the transaction.
   FedSource is also relying on the financial official to represent
   the customer and sign the agreement signifying that funds are
   available and appropriate for the uses outlined. FedSource will
   not assume responsibility for the lack of due diligence on the
   part of customer officials that sign the agreements. FedSource
   should be aware of government-wide and industry specific
   issues or restrictions for any area of service it is offering;
   however, the customer is ultimately accountable for any

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 28
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
   specific restrictions as to the availability and use of their funds.
   As such, FedSource disagrees with the example given regarding
   military construction and thresholds specific to military
   customers. This is a customer-specific restriction and should be
   considered by the program and financial representatives of the
   customers before they sign the interagency agreement or MIPR.

   Management also stated that FedSource is willing to work with
   DoD and other customers to establish a list of checks to be
   included in FedSource’s reasonableness review. This was to be
   completed on December 15, 2006. However, DoD and other
   customers will need to establish a methodology for keeping
   FedSource up to date on the customer’s internal policy
   impacting the checks included in the list. It is important to
   understand that even with these reasonableness checks in place
   the customer retains the ultimate responsibility when signing
   the interagency agreement or MIPR.

   OIG Comment

   Management’s stated action that it established uniform
   procedures for a due diligence review and is willing to work
   with DoD and other customers to establish the checks to be
   included in the review, if done, appears to conform with the
   intent of our recommendation. As part of our second review of
   FedSource, we plan to assess these actions.

   That said, certain aspects of management’s response are of
   concern. Specifically, management is taking a more limited view
   of due diligence than we believe is necessary to prevent the
   types of contracting deficiencies discussed in the finding. This
   limited view is indicated by its disagreement with the military
   construction exception (where the military construction limit
   was exceeded for the type of DoD funds used). We believe the
   military construction limit, which is prescribed in law, is not
   some obscure restriction. As such, it is the very type of
   restriction we would expect to see considered as part of a due
   diligence review. Going forward, our concern may be addressed
   as FedSource and its customers come to a common
   understanding of the due diligence to be performed by


ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 29
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
   FedSource when accepting orders. Management needs to give
   this issue continued attention.

2. Ensure that the period of performance of task orders for
   severable services do not exceed 1 year from the date of the
   MIPR acceptance.

   Management Response

   Management partially concurs with the recommendation.
   According to its response, FedSource and other federal agencies
   (including DoD’s operational and policy departments) interpret
   the Federal Streamlining Act differently from the conservative
   approach presented in the finding and recommendation.
   FedSource is preparing a letter to GAO requesting clarification
   on this issue. Until GAO provides clear guidance on this issue it
   will be subject to interpretation. FedSource planned to issue no
   later than November 30, 2006, that supports the DoD guidance.

   Additionally, FedSource takes the position that the customer
   should be able to receive 12 months of service from the date of
   its task order as long as the customer obligation (MIPR
   acceptance) and the FedSource obligation (task order) are made
   in the same fiscal year. In this case, the customer does not
   receive any services or benefits that they could not receive
   without FedSource. In cases where the customer obligation
   (MIPR acceptance) occurs in one fiscal year and the FedSource
   obligation (task order) occurs in a subsequent fiscal year, we
   agree the period of performance should not exceed 12 months
   from the customer obligation (MIPR acceptance). If the
   customer were allowed 12 months of service from the date of
   the FedSource task order in this instance they would be
   expanding the use of their funds beyond what they could do
   without FedSource because their funds would have expired at
   the end of the fiscal year.

   The audit report implies possible problems with FedSource
   awarding task orders in subsequent years. The report states,
   “The common element in these cases is the task orders were
   awarded in the fiscal year following the fiscal year appropriation
   that was obligated by DoD,” but then it goes on to say that this

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 30
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
   activity is not inappropriate. The report references that the
   servicing agency’s obligation need to be made “promptly” but
   there is no clear guidance as to what this specifically means.

   FedSource also does not agree with the two examples provided
   referring to DoD’s bona fide need issues. Dates alone do not
   make a bona fide need violation. Just because FedSource
   awards a task order in subsequent year does not mean that the
   customer did not have a bona fide need at the time of their
   obligation. In the runway example, the customer’s bona fide
   need has to do with the condition of the runway the time of the
   obligation. If the runway needed maintenance then a bona fide
   need existed. The date FedSource issued the task order for
   maintenance work could be used to shed doubt whether a bona
   fide need existed, but the report is silent as to why there was a
   6-month timeframe between the MIPR acceptance and the task
   order. In the Public Awareness Campaign example, it is unclear
   whether the Family Conference was part of the overall
   campaign or a separate need. If it were part of the overall
   campaign, the fact that this specific deliverable was not
   scheduled until the next fiscal year would not result in a bona
   fide need violation.

   OIG Comment

   While seeking GAO clarification is a management prerogative,
   its action to issue guidance supporting DoD guidance for
   severable services, if responsive to the DoD guidance and
   properly implemented by FedSource, satisfies the intent of this
   recommendation. We believe that the awarding of task orders in
   the subsequent year of the funding is an area of concern. The
   further out the task order is awarded relative to the MIPR date
   should raise a cautionary flag as whether the bona fide need
   rule was met. In working with DoD to establish the elements of
   a due diligence review, management should seek DoD
   expectations for promptness in the issuance of task orders,
   especially when the task order cannot be awarded in the same
   fiscal year as the funding source.




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 31
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
   While we agree that dates alone do not make a bona fide need
   violation, the two examples cited in our finding are problematic,
   and represent potential exceptions to the bone fide need
   requirement. The runway and taxiway repair services task order
   involved the widening of a taxiway as opposed to ongoing
   repair services. Additionally, the period of performance for this
   work, as stated on the task order, started 2 months after the
   funding year and before the task order was awarded. These
   factors should have raised a flag. It should also be noted that
   the task order file did not contain documentation that might
   explain why it took 6 months to award the order, and the
   management response did not include any explanation for this
   time period. Likewise, the task order file for the Public
   Awareness Campaign did not show how the Family Conference
   was an integral part of, and could not be separated from, the
   other services being acquired which were of an ongoing nature.
   This component (the Conference) of the procurement request
   should also have raised a flag as to the bona fide need rule
   because the conference was scheduled in a subsequent fiscal
   year of the funding source. In this regard, the management
   response provides no additional information to support that the
   requirement was met.

                                ******

We appreciate the courtesies and cooperation extended to our staff
during this audit. The major contributors to this report are identified
in appendix 5. If you have any questions, please contact me at
(202) 927-5904.



Thomas E. Byrnes
Director, Manufacturing and Procurement Audits




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 32
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Appendix 1
Objective, Scope, and Methodology




The Department of the Treasury (Treasury) franchise fund, through
its FedSource and the Administrative Resources Center
components, provides contracting assistance to the Department of
Defense (DoD) for a fee. As required by the National Defense
Authorization Act (NDAA) for Fiscal Year 2006, Section 811, the
DoD Office of Inspector General and our office separately, but
concurrently reviewed the procurement policies, procedures, and
internal controls of the Treasury franchise fund. Our objective,
stated in the law, was to determine whether Treasury: (1) is
compliant with defense procurement requirements; (2) is not
compliant with defense procurement requirements, but has a
program or initiative to significantly improve compliance with
defense procurement requirements; or (3) neither of these
conclusions is correct. As mandated by NDAA, we entered into a
Memorandum of Understanding with DoD OIG, as required by
NDAA, to carry out this review and make the determinations
required. We executed the Memorandum of Understanding on
March 6, 2006, and coordinated with DoD OIG throughout our
audit.

We reviewed applicable DoD appropriations laws and applicable
Federal Acquisition Regulation and DoD regulations and
procurement requirements. We also reviewed a July 2005
Government Accountability Office (GAO) report on FedSource.
Additionally, we reviewed FedSource’s procurement policies,
procedures, and internal controls applicable to the procurement of
property and services on behalf of DoD, including policies and
procedures established in response to the GAO report. We also
interviewed Treasury franchise fund officials and staff.

To test compliance with defense procurement requirements, DoD
OIG pulled a sample of FedSource task orders representing high
dollar amounts and DoD ordering offices with high volume
transactions. We concurred with DoD OIG’s approach and
reviewed FedSource’s files for 64 task orders, and related
FedSource Contracting Officer’s Technical Representative files. The
amount funded by DoD for the sample task orders totaled $43.2
million an were awarded in FedSource’s centers in Baltimore, MD;
St. Louis, MO; and Los Angeles, CA. We examined the files for
documentation supporting compliance with applicable Federal
Acquisition Regulation and DoD procurement requirements,

ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 33
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
specifically requirements related to market research, competition,
price reasonableness, funding, and the receipt of the property and
services ordered. The files were located at the three FedSource
ordering centers.

We also reviewed contract files at Administrative Resources
Center, located at the Bureau of the Public Debt in Parkersburg,
West Virginia, for 15 blanket purchase agreements and single and
multiple-award contracts. The blanket purchase agreements, single
and multiple-award contracts were master contract vehicles under
which FedSource awarded the 64 task orders in our sample.

We performed out audit field work between August 2005 and July
2006. Our audit was conducted in accordance with generally
accepted government auditing standards.




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 34
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
               Appendix 2
               Missing Documentation From FedSource Task Order Files




                                           Independent     Proposal,        Price
Task Order                                 Government      Offer, or      Negotiation        Quality Assurance
Award No.                Amount           Cost Estimate     Quote        Memorandum          Surveillance Plan
STL001972-01            $52,014               N/A                             N/A
STL001972-02            136,139               N/A                             N/A
STL001916-01             64,821               N/A                             N/A
STL001916-02            185,177               N/A                             N/A
STL001457-01             51,249                X
STL001457-02             94,904                X                               X
STL001457-03            228,384                X                               X
STL001373-02             31,928               N/A                             N/A
STL001373-03             70,180               N/A                             N/A
STL001373-01             25,300               N/A                             N/A
STL001374-03            171,691                X                              N/A
STL001374-01             73,238                X                              N/A
STL001374-02             79,592                X                              N/A
STL001114-26             84,801               N/A            N/A              N/A
STL001272-17             74,405               N/A            N/A              N/A
STL001115-23             67,513               N/A            N/A              N/A
STL001617-13             44,347               N/A            N/A              N/A
STL001118-07             20,344               N/A            N/A              N/A
STL001623-15             34,883               N/A            N/A              N/A
STL001305-21             43,235               N/A            N/A              N/A
STL001619-02              7,051                                               N/A
STL001622-02              7,051                X              X               N/A
STL001633-04              5,748               N/A            N/A              N/A
STL002275-01            428,400                X              X                X                     O
STL002276-01             35,905               N/A             X                X                     O
STL002277-01            484,500                X              X                X                     O
STL002432-01            306,000                X              X               N/A                    O
STL002433-07            246,168                                                                      O
STL002274-01          1,027,640                 X             X
STL002368-01             50,532
LOS007993-01            692,449                 X                              X
LOS008119-01            738,013                 X                              X                     I
LOS008200-01            950,509                 X                              X                     O
LOS008378-01            254,267                                                X                     O
               Legend:
               X - Documentation missing in task order    O - Task order file had no documentation for quality
                   file                                       assurance surveillance plan
               I – Quality assurance surveillance plan    D - Task order file contained duplicate quality
                   documentation was incomplete               assurance surveillance plan




               ACQUISITIONS: Treasury Franchise Fund Needs to Improve                               Page 35
               Compliance with Department of Defense Procurement Requirements
               (OIG-07-026)
                  Appendix 2
                  Missing Documentation From FedSource Task Order Files




                                             Independent    Proposal,        Price
                                             Government     Offer, or      Negotiation       Quality Assurance
Task Order No.              Amount          Cost Estimate    Quote        Memorandum         Surveillance Plan
LOS011716-01           $1,683,419                 X                             X                     O
LOS012907                 652,467                                               X                     O
LOS013032-01              762,883                 X                             X                     O
LOS013101-01              121,662                 X                             X
LOS013139-04              556,048                                               X
LOS013342-01            1,105,250                 X             X               X
LOS013406-02              163,317                 X                             X                     O
LOS013626-01              233,699                                               X
LOS013969-01            2,714,425                 X             X               X                     O
LOS014013-011           7,246,377                 X             X               X                     O
LOS014086-01              432,427                 X                             X                     I
LOS014097-01              303,425                 X                             X                     O
LOS0141280-02              89,890
LOS014181-01            1,208,054                 X                             X                     O
LOS014227-01              318,330                                               X
LOS014468                 677,830                                               X                     I
LOS014553-01           14,483,489                 X             X               X                     O
BAL015420-06               58,787
BAL119068                  10,980
BAL118876-03               50,001                 X             X               X                     O
BAL015435-01               44,602                               X
BAL015557-03               42,950                               X                                     D
BAL118884-01               39,415                 X             X               X                     O
BAL015316-01               46,483                                               X
BAL119603                 450,000                                                                     I
BAL016947-01               75,571                                                                     D
BAL118432-01            2,174,401                 X             X               X                     O
BAL118906                 172,993                 X             X               X
BAL118431                 251,010                 X             X               X                     O
BAL118430                  143,985                X             X               X                     O
                        $43,182,548                 31         18              32                    27
                 Legend:
                 X - Documentation missing in task order    O - Task order file had no documentation for quality
                     file                                       assurance surveillance plan
                 I – Quality assurance surveillance plan    D - Task order file contained duplicate quality
                     documentation was incomplete               assurance surveillance plan




                  ACQUISITIONS: Treasury Franchise Fund Needs to Improve                              Page 36
                  Compliance with Department of Defense Procurement Requirements
                  (OIG-07-026)
      Appendix 3
      Task Orders With DoD Funding and Bona Fide Need Exceptions




                                                                  Deficiency Noted by DoD OIG
                                                                  Funded with
                                                                   Wrong DoD        Bona Fide Need
Task Order No.                                   Description     Appropriation           Exception
LOS014181                                    Taxiway Repair         X                   X
STL001373                            Management Assistant           X
                  Analyst III for Urban Operations Project
STL001916                                                           X                   X
                                                     Support
STL001972                                          Analyst III      X                   X
STL001374                                            Analyst        X                   X
                   Construction of Main Gate Canopy and
LOS008200                                                           X
                                             Inspection Bldg
LOS013032                           Renovation of Bldg 454          X
LOS008119                           Renovation of Bldg 453          X
                                            Construction of
LOS007993                                                           X
                                     Maintenance Buildings
LOS014553                               Counseling Services                             X
                     Family Child Care Public Awareness
STL002274                Campaign and Family Child Care                                 X
                                                 Conference
STL001457                    Analyst IV for Project Support                             X
STL002277                  Boys and Girls Club of America                               X
STL002276                Youth Fitness Activities and Kits                              X
STL002433                                      Entertainment                            X
LOS013626                         Transportation Relocation                             X
LOS014128                                Valve Replacement                              X
LOS013101                 Design and Acquisition Support                                X
                                 Repair Underground Vaults
LOS013406                                                                               X
                                           in Parking Apron
                       Utilities, Engineering, and Planning
LOS013139                                                                               X
                                                     Support
BAL118884                           Applications Consultant                             X
Totals                                                              9                   16




      ACQUISITIONS: Treasury Franchise Fund Needs to Improve                                 Page 37
      Compliance with Department of Defense Procurement Requirements
      (OIG-07-026)
Appendix 4
Management Response




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 38
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Appendix 4
Management Response




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 39
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Appendix 4
Management Response




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 40
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Appendix 4
Management Response




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 41
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Appendix 4
Management Response




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 42
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Appendix 5
Major Contributors to This Report




Thomas E. Byrnes, Director, Manufacturing and Procurement
   Audits
Cynthia S. Milanez, Audit Manager
John Lemen, Audit Manager
Ricardo Cabarrouy, Auditor-In-Charge
Andras Schneider, Auditor
Chereeka Straker, Auditor
Rufus Etienne, Auditor
Regina Morrison, Auditor
Esther M. Tepper, Communications Analyst
Delores V. Dabney, Referencer




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 43
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
Appendix 6
Report Distribution




The Department of the Treasury

   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Treasury Franchise Fund

   Managing Director
   Chief Executive Officer, FedSource

Department of Defense

   Inspector General

Office of Management and Budget

   OIG Budget Examiner

The Congress

   U.S. Senate, Committee on Armed Forces
   U.S. House of Representatives, Committee on Armed Forces




ACQUISITIONS: Treasury Franchise Fund Needs to Improve           Page 44
Compliance with Department of Defense Procurement Requirements
(OIG-07-026)
